STATE OF FLORIDA
COUNTY OF OKEECHOBEE

}
}
AFFIDAVIT OF:

JOHN L. MCKENZIE
\

I, John L. McKenzie, do solemnly swear under penalties of perjury, that the
foregoing is true and correct.
1.1 am actually and factually innocent of Armed Sexual Battery against the victim
in this case
2. A Federal evidentiary hearing would establish this because: (a) The district court
would appoint counsel who will know how to bring witnesses forth for sworn
testimony; (b) The original 1989 examining personnel: Dr. D. Franklin, and Nurse
L. Donley, are available and will testify that the rape kit presented to jurors by
State prosecutor as the original, unaltered and not tampered with rape kit recovered
in 1989, was not the same one that Dr. Franklin released to police in 1989; (c)
Bethesda Administrators will testify that they never used or supplied police
evidence bags as "Rape Kits" in any sexual assault examination.
3. The above facts were confirmed when my wife spoke with Nurse Donley and
Bethesda Administrators. They confirmed the type of sexual assault kit and
examination procedures used at Bethesda in 1989 are and were used nationwide as
standard protocol.
4. These facts establish actual factual innocence and not mere legal insufficiency
because the sole evidence is false and the victim refuses to identify me because I
am not the man in her mind that she saw. As well as fingerprints that exonerate me.
5. I firmly believe that I cannot and will not get a fair hearing in State court. I
asked the State court for leave to submit written question depositions to Dr.
Franklin, Nurse Donley and a Bethesda Administrator. Rather than seek the truth
of the matter, the State court denied my request, then denied my petition. The State
judge knew the answers to my questions would open a can of worms that he did
not want to be responsible for opening. I was then threatened with sanction if I

ever brought the claim forward again. Thus, I have no other court or remedy
available to me.
Further Affiant sayeth naught.
Under penalty of perjury, I swear the aforesaid to be true and correct.

/

b>
John L..McKenzie, #930334
Okeechobee Correctional InstitutiorK
3420 N. E. 168th Street
Okeechobee, FL, 34972.

